        DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Inspector General



                                                                                 Washington, D.C. 20201




                                    SEP - 1 2009

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare &      dicaid Services

                   ;:~
FROM:          oseph E. Y. ngrin
              Deputy Inspector General for Audit Services


SUBJECT:	 Review of Pennsylvania's Medicaid Payments for Targeted Case Management
          Services for Calendar Years 2003 Through 2005 (A-03-06-00202)


Attached is an advance copy of our final report on Pennsylvania's Medicaid payments for
targeted case management (TCM) services for calendar years 2003 through 2005. We will issue
this report to the Pennsylvania Department of Public Welfare (the State agency) within 5
business days. This audit was pati of an Office of Inspector General initiative to determine
whether State agency claims for TCM services were made in accordance with Federal
requirements.

Section 1905(a)(l9) of the Social Security Act (the Act) authorizes State Medicaid agencies to
provide case management services to Medicaid beneficiaries. Section 1915(g)(2) of the Act
defines Medicaid case management as "services which will assist individuals eligible under the
[State] plan in gaining access to needed medical, social, educational, and other services." A
2001 Centers for Medicare & Medicaid Services letter to State Medicaid directors refers to case
management as TCM when the services are furnished to specific populations in a State.

Pennsylvania's State plan allows TCM services for individuals with a mental health or mental
retardation (MH/MR) diagnosis. Two approved State plan amendments describe the coverage of
services furnished to persons with MH/MR diagnoses, recordkeeping requirements, and the
payment methods the State uses. For the period January 1,2003, through December 31, 2005,
the State agency claimed $258,104,096 ($143,486,037 Federal share) for MH/MRTCM services.

Our objective was to determine whether the State agency's claims for TCM services from
January 1, 2003, through December 31, 2005, complied with Federal and State requirements.
Page 2 – Charlene Frizzera


The State agency’s claims for TCM services did not always comply with Federal and State
requirements. Based on our review of 375 claims in our 100 sampled beneficiary-months, 36
claims included in 15 beneficiary-months were unallowable because the services were
unsupported by case records or insufficiently documented. The State agency did not ensure that
TCM services claimed under the Medicaid program met the documentation requirements. As a
result, we estimate that during calendar years 2003 through 2005, the State agency claimed
$11,859,692 ($6,497,132 Federal share) in unallowable TCM costs. The remaining 339 claims
included in 85 sampled beneficiary-months complied with Federal and State requirements.

We recommend that the State agency:

   •	 refund to the Federal Government the $6,497,132 for undocumented and unsupported
      claims for TCM services,

   •	 review TCM claims submitted subsequent to our audit period and report any necessary
      adjustments, and

   •	 ensure that future TCM services claimed under the Medicaid program are properly
      documented in accordance with Federal and State requirements.

In written comments on our draft report, the State agency concurred with our findings for two
beneficiary-months and agreed to strive to ensure that future TCM services claimed under the
Medicaid program are properly documented. The State agency provided additional
documentation for services claimed in eight of the beneficiary-months, stated that with sufficient
time it could retrieve the documentation for services in the remaining undocumented beneficiary-
months, did not address insufficiently documented services claimed for one beneficiary-month,
and disagreed with our finding for services claimed for one beneficiary-month. Nothing in the
State agency’s comments made us change that finding.

Based on this additional documentation provided by the State agency, we have revised our report
and recommendations to reflect that we are questioning 15 sampled beneficiary-months with
36 errors.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-06-00202.


Attachment
i''''~4'''''C>'<>'I', DEPARTMENT OF HEALTH & HUMAN SERVICES

; ..... f-                 .
                                                                                         OFFICE OF INSPECTOR GENERAL

                                                                                          Office of Audit Services, Region III
~'<1..      ~                  .                                                          Public Ledger Building, Suite 316
    ...."                                                                                 150 S. Independence Mall West
                                                                                          Philadelphia, PA 19106-3499



                                                       SEP -2 2009
                Report Number: A-03-06-00202

                Mr. Theodore Dallas
                Executive Deputy Secretary
                Department of Public Welfare
                Health and Welfare Building, Room 234
                Harrisburg, Pennsylvania 17105-2675

                Dear Mr. Dallas:

                Enclosed is the U.S. Department of Health and Human Services(HHS), Office ofInspector
                General (DIG), finalreport entitled "Review of Pennsylvania's Medicaid Payments for Targeted
                Case Management Services for Calendar Years 2003 through 2005." We will forward a copy of
                this report to the HHS .action official noted on the following page for review and any action
                deemed necessary.

                The HHS action official will make final determination as to actions taken on all matters reported.
                We request that you respond to this official within 30 days from the date of this letter. Your
                response should present any comments or additional information that you believe may have a
                bearing on the final determination.                                             .

                Pursuant to the ·Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports gener!lUy are made
                available to the public to the extent that information in the report is not subject to exemptions in
                the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                If you have any questions or comments about this report, please do not hesitate to call me, or
                contact Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
                Robert.Baiocco@oig.hhs.gov. Please refer to report number A~03':"06-00202 in all
                correspondence.

                                                              Sincerely,




                                                              Stephen Virbitsky
                                                              Regional Inspector General
                                                                for Audit Services


             Enclosure
Page 2 – Mr. Theodore Dallas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF PENNSYLVANIA’S 

  MEDICAID PAYMENTS FOR 

TARGETED CASE MANAGEMENT 

SERVICES FOR CALENDAR YEARS 

     2003 THROUGH 2005 





                     Daniel R. Levinson
 

                      Inspector General 


                      September 2009
 

                       A-03-06-00202
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program. For the period January 1, 2003,
through December 31, 2005, Pennsylvania’s Federal share ranged between 53.84 percent and
57.71 percent.

Section 1905(a)(19) of the Act authorizes State Medicaid agencies to provide case management
services to Medicaid beneficiaries. Section 1915(g)(2) of the Act defines Medicaid case
management as “services which will assist individuals eligible under the [State] plan in gaining
access to needed medical, social, educational, and other services.” A 2001 CMS letter to State
Medicaid directors refers to case management as targeted case management (TCM) when the
services are furnished to specific populations in a State. The letter provides that allowable TCM
services for Medicaid-eligible beneficiaries include assessment of the beneficiary to determine
service needs, development of a specific care plan, referral to needed services, and monitoring
and followup.

The State’s approved State plan further describes services covered under this option. The State
plan allows TCM services for individuals with a mental health or mental retardation (MH/MR)
diagnosis. Two approved State plan amendments (SPA) describe the coverage of services
furnished to persons with MH/MR diagnoses, recordkeeping requirements, and the payment
methods the State uses. The State covers services to persons with mental retardation under
SPA 87-04 and services to persons with serious mental illness under SPA 92-13. For the period
January 1, 2003, through December 31, 2005, the State agency claimed $258,104,096
($143,486,037 Federal share) for MH/MR TCM services.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for TCM services from
January 1, 2003, through December 31, 2005, complied with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency’s claims for TCM services did not always comply with Federal and State
requirements. Based on our review of 375 claims in our 100 sampled beneficiary-months, 36
claims included in 15 beneficiary-months were unallowable because the services were
unsupported by case records or insufficiently documented. The State agency did not ensure that
TCM services claimed under the Medicaid program met the documentation requirements. As a
result, we estimate that during calendar years 2003 through 2005, the State agency claimed


                                                i
$11,859,692 ($6,497,132 Federal share) in unallowable TCM costs. The remaining 339 claims
included in 85 sampled beneficiary-months complied with Federal and State requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $6,497,132 for undocumented and unsupported
      claims for TCM services,

   •	 review TCM claims submitted subsequent to our audit period and report any necessary
      adjustments, and

   •	 ensure that future TCM services claimed under the Medicaid program are properly
      documented in accordance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings for two
beneficiary-months and agreed to strive to ensure that future TCM services claimed under the
Medicaid program are properly documented. The State agency provided additional
documentation for services claimed in eight of the beneficiary-months, stated that with sufficient
time it could retrieve the documentation for services in the remaining undocumented beneficiary-
months, did not address insufficiently documented services claimed for one beneficiary-month,
and disagreed with our finding for services claimed for one beneficiary-month. The State
agency’s comments are presented as Appendix D. We excluded from the comments the case
notes that the State agency provided to support its position because the notes contain personally
identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

We accepted supporting documentation for all TCM services claimed in three sampled
beneficiary-months and for some of the TCM services claimed in another beneficiary-month.
Based on this additional documentation provided by the State agency, we have revised our report
and recommendations to reflect that we are questioning 15 sampled beneficiary-months with 36
errors.




                                                ii
                                                      TABLE OF CONTENTS 

                                                                                                                                           Page

INTRODUCTION..........................................................................................................................1 


     BACKGROUND .......................................................................................................................1 

       Medicaid Program................................................................................................................1 

       Medicaid Targeted Case Management Services ..................................................................1 

       Targeted Case Management in Pennsylvania ......................................................................1 


     OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................................2 

       Objective ..............................................................................................................................2 

       Scope ..................................................................................................................................2 

       Methodology ........................................................................................................................2 


FINDINGS AND RECOMMENDATIONS ................................................................................3 


     FEDERAL PROGRAM REQUIREMENTS.............................................................................3 

       Federal Law .........................................................................................................................3 

       Centers for Medicare & Medicaid Services “State Medicaid Manual”...............................3 


     STATE REQUIREMENTS AND GUIDANCE........................................................................4 

       State Plan Amendments .......................................................................................................4 

       Pennsylvania’s Administrative Code and Related State Agency Bulletins .........................4
 


     UNALLOWABLE TARGETED CASE MANAGEMENT COSTS ........................................4 

       Unsupported Claims.............................................................................................................5 

       Insufficiently Documented Claims ......................................................................................5 


     CONCLUSION..........................................................................................................................6 


     RECOMMENDATIONS...........................................................................................................6 


     STATE AGENCY COMMENTS..............................................................................................6 


     OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................6 


APPENDIXES

     A – SAMPLE DESIGN AND METHODOLOGY

     B – SAMPLE RESULTS AND ESTIMATES

     C – SAMPLE RESULTS WITH DOCUMENTATION ERRORS

     D – STATE AGENCY COMMENTS


                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program. For the period January 1, 2003,
through December 31, 2005, Pennsylvania’s Federal share ranged between 53.84 percent and
57.71 percent.

Medicaid Targeted Case Management Services

Section 1905(a)(19) of the Act authorizes State Medicaid agencies to provide case management
services to Medicaid beneficiaries. Section 1915(g)(2) of the Act defines Medicaid case
management as “services which will assist individuals eligible under the [State] plan in gaining
access to needed medical, social, educational, and other services.” CMS’s State Medicaid
Director’s Letter 01-013, issued January 19, 2001, refers to case management services as
targeted case management (TCM) when the services are furnished to specific populations in a
State. Allowable TCM services for Medicaid-eligible beneficiaries include assessment to
determine service needs, development of a specific care plan, referral and related activities to
help the individual obtain needed services, and monitoring and followup.

Targeted Case Management in Pennsylvania

Pennsylvania’s approved State plan further describes services the State covers under this option.
The State plan allows TCM services for individuals with a mental health or mental retardation
(MH/MR) diagnosis. In Pennsylvania, MH/MR services are coordinated through county
MH/MR program offices.

The State agency requests Federal reimbursement at the Federal medical assistance percentage
for TCM as services. Two approved State plan amendments (SPA) describe the coverage of
services furnished to persons with MH/MR diagnoses, recordkeeping requirements, and the
payment methods the State uses. The State covers services to persons with mental retardation
under SPA 87-04 and services to persons with serious mental illness under SPA 92-13.

The State agency claims costs for TCM services for persons with mental retardation as service
management. Pursuant to SPA 87-04, “service management consists of locating, coordinating
and monitoring necessary and appropriate services” for “persons with mental retardation who are
eligible for Medical Assistance under the State plan.”


                                                1
 

The State agency claims costs for TCM services for adults and children with serious mental
illness as “case management services” under SPA 92-13. Pursuant to SPA 92-13, case
management services “assist mentally ill individuals eligible under the State Plan in gaining
access to needed medical, social, educational and other services.” The State covers case
management services for individuals with serious mental illness at two levels of coverage:
resource coordination and intensive case management.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for TCM services from
January 1, 2003, through December 31, 2005, complied with Federal and State requirements.

Scope

We reviewed the State agency’s claims of $258,104,096 ($143,486,037 Federal share) for
MH/MR TCM services from January 1, 2003, through December 31, 2005.

Our objective did not require a review of the overall internal control structure of the State
agency. Therefore, we limited our review of internal controls to those controls related to State
agency payments and claims for TCM.

We performed our fieldwork at the State agency in Harrisburg, Pennsylvania, and at 14 county
MH/MR offices and seven MH/MR providers throughout the State.

Methodology

To accomplish our objective, we:

   •	 reviewed Federal laws, regulations, and other requirements, including the SPAs, 

      governing Medicaid reimbursement for TCM services; 


   •	 interviewed State agency and county officials to determine how TCM services are
      provided and claimed;

   •	 reviewed the State agency’s TCM policies, procedures, and documentation requirements;

   •	 reconciled the TCM services claimed for Federal reimbursement on Form CMS-64,
      “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” to
      the accounting records of the State agency that supported the claims;

   •	 reviewed the Medicaid claiming process and case record documentation requirements;

   •	 selected, as detailed in Appendix A, a random sample of 100 beneficiary-months with
      375 TCM claims submitted by the State agency for Medicaid-eligible beneficiaries;


                                                2
 

   •	 analyzed documentation from the 100 beneficiary case records to determine if the
      activities performed and documented by the case managers for the 375 TCM claims were
      in compliance with applicable requirements; and

   •	 estimated, based on the sample results, the unallowable costs in the population of 

      beneficiary-months, as shown in Appendix B. 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency’s claims for TCM services did not always comply with Federal and State
requirements. Based on our review of 375 claims in our 100 sampled beneficiary-months, 36
claims included in 15 beneficiary-months were unallowable because the services were
unsupported by case records or insufficiently documented. (See Appendix C.) The State agency
did not ensure that TCM services claimed under the Medicaid program met the documentation
requirements. As a result, we estimate that during calendar years 2003 through 2005, the State
agency claimed $11,859,692 ($6,497,132 Federal share) in unallowable TCM costs. The
remaining 339 claims included in 85 sampled beneficiary-months complied with Federal and
State requirements.

FEDERAL PROGRAM REQUIREMENTS

Federal Law

Section 1905(a)(19) of the Act authorizes State Medicaid agencies to provide case management
services to Medicaid beneficiaries. Section 1915(g)(2) of the Act defines Medicaid case
management as “services which will assist individuals eligible under the plan in gaining access
to needed medical, social, educational, and other services.” The Congressional Conference
committee report accompanying Public Law 99-272, which added section 1915(g) to the Act,
emphasized that payment for case management services must not duplicate payments made to
public agencies or private entities under other program authorities for the same purpose. Section
1902(a)(27) of the Act requires providers to keep records that fully disclose the extent of the
services provided to Medicaid beneficiaries receiving assistance under the State plan and to
furnish such records on request.

Centers for Medicare & Medicaid Services “State Medicaid Manual”

The CMS “State Medicaid Manual,” section 4302.2(G)(1), establishes the documentation
needed to support a claim for case management services:




                                                3
 

       Payment for [case management] services is made following the receipt of a valid
       provider claim. Providers must maintain case records which indicate all contacts
       with and on behalf of recipients. The case records must document name of
       recipient, the date of service, name of provider agency and person providing the
       service, nature, extent, or units of service, and the place of service delivery.

Also, section 2500.2(A) of the “State Medicaid Manual” instructs States to report only
expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and is immediately available when the claim is filed.

STATE REQUIREMENTS AND GUIDANCE

State Plan Amendments

The State agency covers TCM for persons with mental retardation as “service management”
under SPA 87-04. The SPA requires that providers of service management to individuals with
mental retardation must specify recipient information and compensable services. The State
agency covers TCM for persons with serious mental illness as “case management services”
under SPA 92-13. In addition to specifying recipient information and compensable services,
providers of case management services must maintain records that document the nature and
extent of the case management service furnished.

Pennsylvania’s Administrative Code and Related State Agency Bulletins

The State’s Administrative Code (55 PA. CODE section 5221.33 (1993)) requires that case notes
must verify the necessity for the contact and reflect the goals and objectives of the intensive case
management service plan for persons with serious mental illness. The State has further clarified
recordkeeping requirements in its State plan and State regulations through policy bulletins issued
to mental health providers. Mental Health Bulletin 5221-93-01 (September 21, 1993) clarifies
the requirements for intensive case management records contained in 55 PA CODE section 5221.
The Bulletin states that case notes documenting intensive case management services must verify
the necessity for the contact and reflect the goals and objectives of the intensive case
management service plan. Mental Health and Substance Abuse Services Bulletin OMH-93-09,
effective April 1, 1993, clarifies that case records for resource coordination must contain
“documentation of each contact indicating the date and time (beginning and end) of service,
purpose of the contact, staff person(s) involved, services provided, and the outcome(s) of the
contact.”

UNALLOWABLE TARGETED CASE MANAGEMENT COSTS

We estimate that the State agency claimed at least $11,859,692 ($6,497,132 Federal share) for
unallowable TCM services provided during the period from January 1, 2003, through
December 31, 2005. Of the 375 claims we reviewed in the 100 sampled beneficiary-months, 36
claims included in 15 beneficiary-months were unallowable because case managers did not
properly support 31 claims or sufficiently document the case management services in the case
notes for 5 claims.



                                                 4
 

Unsupported Claims

The State agency did not provide any documentation or case notes to support the provision of 31
claimed services during the sampled months:

   •	 22 claims for Mental Retardation service management for which the State agency did not
      comply with the CMS “State Medicaid Manual” and SPA 87-04 to document, at a
      minimum, beneficiary information and compensable services and

   •	 9 claims for Mental Health intensive case management services for which the State
      agency did not comply with the CMS “State Medicaid Manual,” SPA 92-13, and
      55 PA CODE § 5221.33 to provide specific documentation of the necessity, circumstances,
      and recipient of the service.

Because the State agency did not provide any documentation for these 31 claims, we were unable
to determine whether the service was performed or whether it was a compensable or necessary
service.

Insufficiently Documented Claims

The State agency did not provide sufficient documentation or case notes to support the provision
of five claimed services during the sampled beneficiary-months.

   •	 For three intensive case management services claimed during a sampled beneficiary-
      month, a contact or activity entry was recorded; however, the case notes did not support
      that the case manager performed a compensable service under SPA 92-13 or complied
      with the documentation requirements of 55 PA CODE § 5221.33. For one claim, the case
      notes documented that the case manager attempted to contact the client’s mother by
      telephone but received no answer. For another claim, the case manager attempted to
      meet with the client, but the client was not at home. In both cases, case notes provided
      no documentation that the case manager ever successfully provided the service billed.
      Case notes for the third claim were illegible.

    •	 For two resource coordination services claimed during a sampled beneficiary-month, the
       case notes did not describe the nature and extent of the case management service or
       provide sufficient documentation to support that case managers had provided
       compensable services under SPA 92-13. The case notes for both claims indicated that
       the case manager was trying to resolve the client’s outstanding bench warrants.
       However, the case notes did not indicate how the services related to coordinating access
       to mental health services.

Because the State agency did not provide sufficient documentation for these five claims, we were
unable to determine whether the service was performed or whether it was a compensable or
necessary service.




                                               5
 

CONCLUSION

The State agency did not ensure that TCM services were documented in accordance with Federal
and State requirements. As a result, the State agency claimed $6,497,132 (Federal share) in
Medicaid reimbursement for TCM services that did not meet Federal and State requirements and
were, therefore, unallowable.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $6,497,132 for undocumented and unsupported
      claims for TCM services,

   •	 review TCM claims submitted subsequent to our audit period and report any necessary
      adjustments, and

   •	 ensure that future TCM services claimed under the Medicaid program are properly
      documented in accordance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings for
services claimed in two sampled beneficiary-months and said that it would strive to ensure that
future TCM services claimed under the Medicaid program are properly documented. The State
agency provided additional documentation for services claimed in eight beneficiary-months, and
stated that, with sufficient time, it could retrieve the documentation for services claimed in other
beneficiary-months that may have been archived. The State agency did not address services
claimed in one insufficiently documented beneficiary-month and disagreed with our finding for
two services claimed in one beneficiary-month that assisting the beneficiary with outstanding
bench warrants did not relate to coordinating access to mental health services. The State agency
said that clearing the bench warrants allowed the client to apply for Supplemental Security
Income, which provided income “to obtain housing and a more stable medical benefit.” The
State agency’s comments are presented as Appendix D. We excluded from the comments the
case notes that the State agency provided to support its position because the notes contain
personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Of the eight beneficiary-months for which the State agency provided additional documentation,
we accepted all TCM services claimed in three beneficiary-months and accepted some TCM
services claimed in another. The documentation provided for an additional four beneficiary-
months either supported or did not address our findings. Nothing in the State agency’s
comments made us change our finding on the outstanding bench warrants. Based on the
additional documentation provided by the State agency, we have revised our report and




                                                 6
 

recommendation to reflect that we are questioning 15 sampled beneficiary-months with 36 errors
(see appendix C).




                                              7
 

APPENDIXES
 

                                                                                 APPENDIX A 



                        SAMPLE DESIGN AND METHODOLOGY 


POPULATION

The population was beneficiary-months for Medicaid targeted case management (TCM) services
claimed for reimbursement during calendar years 2003 through 2005.

SAMPLING FRAME

The sampling frame was a database contained in a Microsoft Access file. The database
contained details on 1,395,411 beneficiary-months in calendar years 2003 through 2005 for
which the Department of Public Welfare received $143,486,037 (Federal share) in
reimbursements for TCM services.

SAMPLE UNIT

The sample unit was a beneficiary-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 100 beneficiary-months.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, statistical software. We used the random number generator for our simple random
sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the beneficiary-months in our sampling frame from 1 to 1,395,411.
After generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We estimated the dollar value of unallowable claims in each beneficiary-month.
                                                                               APPENDIX B 




                        SAMPLE RESULTS AND ESTIMATES 



                                  Sample Details and Results 


                                                              Number of
                                              Value of       Beneficiary-
Beneficiary-                                   Sample        Months With       Value of
  Months         Value of        Sample      Beneficiary-   Documentation   Documentation
 in Frame         Frame           Size         Months          Errors          Errors



 1,395,411     $143,486,037        100         $11,118             15            $998



                                         Estimates 

                 (Limits Calculated for a 90-Percent Confidence Interval)
 


                                                  Estimated Dollar 

                                                      Value of 

                                                Documentation Errors
 


                            Point Estimate           $13,932,621
                             Lower Limit              $6,497,132
                             Upper Limit             $21,368,110
                                                                                              APPENDIX C 




                                      SAMPLE RESULTS 

                                WITH DOCUMENTATION ERRORS
 



                Beneficiary-
                  Month             Number of                                 Error Amount
                (By Sample         Claims With         Documentation            (Federal
                 Number)              Errors              Error 1                Share)
                     1                   1              Unsupported              $36.00
                    18                   2              Unsupported               67.50
                    20                   1              Unsupported                 9.94
                    23                   1              Insufficient              40.20
                    53                   1              Unsupported              126.96
                    55                   2              Insufficient              93.80
                    60                   1              Insufficient              20.43
                    61                   6              Unsupported               36.89
                    63                   1              Insufficient              46.90
                    67                   1              Unsupported                 8.02
                    69                   4              Unsupported               62.62
                    76                   5              Unsupported              188.50
                    83                   3              Unsupported              163.18
                    92                   1              Unsupported                 0.94
                    97                   6              Unsupported               96.58
                   Total                36                                      $998.46




1
 For beneficiary-months with more than one unallowable claim, the reason for the error—unsupported or
undocumented—was the same for each unallowable claim.
APPENDIX D
  Page 1 of 3
APPENDIX D
  Page 2 of 3
APPENDIX D
  Page 3 of 3 

